No. 20IN THE

Supreme Court of the United States
THE NORTH AMERICAN MISSION BOARD OF THE
SOUTHERN BAPTIST CONVENTION, INC.,
Petitioner,
v.
WILL MCRANEY,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Matthew T. Martens, a member of
the bar of this Court, certify that the accompanying Petition for a Writ of Certiorari
contains 8,886 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
Executed on February 17, 2021.

MATTHEW T. MARTENS
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
matthew.martens@wilmerhale.com

